             CLOSEOUT MEMEORANDUM FOR A-01040012
We received an email from a .Program~irector'referencing a call he received fiom an
institutional official at university (112. The official stated that although university (1)
signs-off on the Animal Care and Use Protocol Review Form for University (213their
animal care facilities have never been inspected by anyone fiom university (1). The
National Science Foundation is currently supporting animal research at university (2).
After conferring with the Program Director, we decided that the matter should be
investigated further.

After review of the information received fiom the institutions as well as the principal
investigator involved, the awards4were suspended for approximately 30 days to allow the
institution time to correct all deficiencies in their animal care and use protocol.
University (2) notified NSF that all deficiencies have been corrected and the college is
now in compliance with NSF as well as NiH Guidelines.

OIG conducted a follow-up site visit at university (2). We confirmed that all deficiencies
had been corrected and that the College is in full compliance with federal regulations.

Therefore, this inquiry is closed and no further actions will be taken




cc: Investigations, IG




                                    Page 1 of 1                                A01-12
